l                                                   8       .
                                                                                                                       Closeout - RDT
                                                                             NATIONAL SCIENCE FOUNDATiON                    Page 1 of 2
                       -1                                                          4201 WILSON BOULEVARD
                                                                                  ARLINGTON, VIRGINIA 22230
                                     I:        :,




I                                   1        OFflCEOF
                                          INSPECTOR GENERAL

                                ~i
                                ,I          MEMORANDUM
                                I
                             li
                                I
                                            Date:                 August 27,1998
,   .. -   ... ...** . -.                               .       -. .   ..     .        --.


                            i               To:                   File No. I96100055
                        11

                                            From:                                   pecial Agent, Investigatio
                            I

                        /                   Through:                               Special Agent-in-Charge, In
                       I,


                        1                   Re:'
                       /I

                        I
                       I!
                                            Backmound:

                                            In October 1996,our office received a memo from an NSF program officer (PO) stating
                                            his concerns over the legitimacy of a company to which NSF awarded an SBIR Phase I


                                            attempted to contact the company concerning information that was omitted in their
                                            proposal. After several unsuccessful attempts, the PO
                                            number in Vancouver, Canada which also belonged
                                            company that provided a letter of commitment for
                                            awaid. h e PO referred a memo to OIG because of the following reasons:




                   I                         Our office investigated to determine i - n d / o m      were legitimate companies, if
                   ,                         they were domestic or foreign, and whether or not they had committed any fraudulent
               I
               I
                                             activities pertaining to their federal awards.
               !
                                             Investieation:

              /I
                                             A Lexis and FinCEN query reveale
                                             company, is the parent company fo
                                             incorporated in the United States.
                                                                                          Closeout -:
                                                                                               Page 2 of 2
         1
     I
     (I has absorbed both                               was at least a 5 1%American owned company at
             the time it
     il
     1 ~0th.)              an-have        received SBIR awards from other federal agencies.

    Ispoke with ~ ,r- .
         I                             the PI on the                         She worked a m f o r 1
 1 ?hyears and left the c pany in 1 9 9 5 . said                              her two months of salary.
 '1 She did not know
 I
                              current location, but thought, -                               IL. She
  i also said that she t h o u g h a d changed its name t

                           dother-ploy_e_e_s            appcared~ohave (at least foger) affiliations         -- -
                                    on
                                     -d          the University of
     I


                   via a subcontract. I reviewed the subcontract ameement
 1
     ' .facilities
       an-
                                                                      u

                    and found no evidence that contradicts what was listed in the proposal or told
       to me by witnesses.
 I1



     I       I interviewed various other individuals affiliated w i t h n d reviewed other
             SBIR proposals and reports for these companies, and found no evidence of fraud.
j
i Conclusions:
il
 I
li

             mand
   Although there is no additional information to clarify the exact relationship between

   the time it applie
                                          it appears that-was        a domestic company at
                                           funds. Despite the questioned legitimacy of the
I( companies from such factors as the abrupt change of address, the unclear relationship
 I between the subsidiaries and parent companies, and the inability to locate some former

   employees, we have not obtained any evidence of fraud or other criminal acts.
/I
;            This case is closed pending further information.
'I
I
